HHS/OIG-Audit--"Audit of the State of California's Pension Fund, (A-09-92-00116)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of State of California's Pension Fund," (A-09-92-00116)
August 1, 1994
Complete
Text of Report is available in PDF format (1 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that California used pension fund reserves
to reduce California's budget deficit. In doing so the State passed legislation
that effectively excluded the Federal Government (includes participating programs
of all Federal agencies) from receiving its fair share of about $816 million
in pension fund reserves which was allocated to State agencies for operating
expenditures. Since the Federal Government participated in the contributions
to the pension plan, then Federal programs should receive their fair share
of the cost reductions resulting from the use of reverted pension funds. The
Office of Inspector General estimates that the Federal Government's share is
about $111 million and recommends financial adjustments to Federal programs
for this amount.